              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




           Competition in the
  International Outbound Mail Market




                             May 18, 2012


Prepared by   Office of Audit
              Report Number: EN-WP-12-001
May 18, 2012

MEMORANDUM FOR:             GISELLE E. VALERA
                            VICE PRESIDENT AND
                            MANAGING DIRECTOR, GLOBAL BUSINESS



                               E-Signed by Darrell E. Benjamin, Jr
                                 VERIFY authenticity with e-Sign

FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue & Systems

SUBJECT:                    Competition in the International Outbound Mail Market
                            (Report Number EN-WP-12-001)

Attached are the results of our review, initiated at your request, regarding competition in
the International Outbound Mail Market (Project Number 12RO001EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, director,
Retail, Business, and International, or me at 703-248-2100.

Attachments

cc: Paul E. Vogel
    Nagisa Manabe
    Corporate Audit and Response Management
Competition in the International Outbound Mail Market                                                    EN-WP-12-001



       Competition in the International Outbound Mail Market
                                          Executive Summary

Prior to 1986, the U.S. Postal Service had a monopoly delivering outbound international
mail 1 to foreign destinations. In 1986 – at the urging of American businesses and in
response to a direct request from President Reagan – the Postal Service exempted
international remailing from the postal monopoly in support of a U.S. policy designed to
permit and promote competition in the international mail marketplace.

Today, the Postal Service faces increased competition from various sources for the
delivery of outbound international mail. It competes with foreign postal administrations
and private commercial entities that operate outside of the legislative regulations the
Postal Service is required to follow. 2 For example, the Postal Service must follow
specific laws regarding labor agreements with employees, 3 transportation contracting
and pricing restrictions while commercial entities are able to operate free of these
encumbrances. This competition, combined with the extreme financial challenges it
currently faces, has led the Postal Service to reassess its position in the marketplace
and determine whether it is attaining optimal market share and maximizing international
mail revenue.

At the request of the Postal Service, we initiated a review of entities in the U.S. that
provide outbound international shipping and delivery services. Specifically, Postal
Service management posed the following questions:

   How many entities operating in the U.S. market provide international outbound
    services?

   How much revenue is the Postal Service losing to these entities?

   Can the Postal Service compete with these entities?

In this paper, we discuss the types of entities the Postal Service competes with in the
outbound international letter mail market and some of the advantages these entities
have. We also discuss the availability of related data in the international letter mail
market and what could make the Postal Service more competitive in this area.




1
  Outbound international mail is generally considered to be mail traveling from within the boundaries of the U.S. to an
ultimate destination outside of the U.S.
2
  Title 39 U.S.C.– Postal Service.
3
  Title 39 U.S.C. §1201 through 1209.
                                                           i
Competition in the International Outbound Mail Market                                                    EN-WP-12-001



Number of Entities Operating in the U.S. Market

The Postal Service faces competition from two general types of entities: Extraterritorial
Offices of Exchange (ETOEs) 4 and private mail service providers. ETOEs are
businesses operated by, or in connection with, a postal operator outside of its national
territory within the borders of another country. 5

An ETOE collects mailings and payments from customers in the country where it is
established. The ETOE then consolidates the mailings received and ships them to a
designated country where the mail will be delivered to the recipient.

For example, Deutsche Post operates ETOEs in Chicago, IL, Newark, NJ, Los Angeles,
CA, and Miami, FL; and provides mail service from the U.S. to Germany and
destinations worldwide. Customers deliver their mailpieces to Deutsche Post’s ETOE
and pay fees directly to the ETOE. The ETOE then consolidates mailings from all of its
customers and provides shipments directly to their logistics partner, DHL. DHL then
transports these shipments on their aircraft to their overseas destinations where they
are delivered to either another mail consolidator or a local Post for delivery to the
recipient in the foreign country. This entire process bypasses the Postal Service.

Worldwide there are 141 ETOEs with 28 operating in the U.S. As commercial entities,
ETOEs often have the option to use either traditional mail channels under Universal
Postal Union (UPU) regulations (such as postal operator delivery) or commercial
channels (such as cargo or freight companies), whichever provides the greatest
financial advantage.

Private mail service providers not owned by foreign postal operators also provide a wide
variety of mailing services, from mail preparation to consolidation and delivery. Some of
these providers operate independently from ETOEs, and some are associated with and
operate in conjunction with ETOEs. Like ETOEs, these providers collect mail from their
customers, collect fees for shipping the mail, and consolidate shipments of mail for
transport to foreign countries. These entities then contract with air carriers offering the
lowest rates to facilitate transportation to destination countries. Some of these entities
conduct operations in the destination country where they receive the shipment from the
air carrier and deliver the mail directly to a Post and into the domestic mail stream in
that country. Others may rely on a partner in the foreign country to process the
shipment when received.




4
  The U.S. allows establishment of ETOEs on U.S. territory for letter-post, parcels, and express delivery services.
Letter-post and parcel are further defined in the glossary. For the purpose of this paper, the terms
“letter-post” and “letter mail” are synonymous.
5
  U.S. Government policy regarding the establishment of ETOEs on U.S. territory can be found on the State
Department website at: http://www.state.gov/p/io/ipp/65178.htm.
                                                            ii
Competition in the International Outbound Mail Market                                                 EN-WP-12-001



We identified over 200 private mail service providers positioned in the cities where the
five Postal Service international service centers (ISCs) are located. 6 These private
operators (PROs) follow general U.S. business laws, which allow them to negotiate
business transactions to their advantage. This gives them the flexibility to offer volume
discount rates, without Postal Regulatory Commission oversight, by using commercial
carriers to ship mailings overseas. Private mail service providers are not required to
identify their mail volume or revenue to the public; however, they must follow required
customs laws.

Market Share of These Entities

We determined that letter-post, parcels, and express volume and revenue data for
ETOEs and private mail service providers was generally unavailable from public
sources due to proprietary concerns, or was combined with other operational data. In
cases where ETOEs or PROs reported financial data to larger parent companies, we
identified consolidated operating statements without sufficient detail for the subsidiary
company.

Limited market data for international outbound mail from the U.S. was available only
through sources provided by the Postal Service. A specialized market survey published
quarterly by the International Post Corporation (IPC) provided results on only six
respondent countries volunteering their own mailing information. This data, provided by
the Postal Service, includes
                                                                  the accuracy of the
survey responses depended on the integrity of the respondents and could not be
verified.




We also identified CYs 2009 and 2010 market data for international parcels under
70 pounds and express envelopes. This data was previously supplied to the
Postal Service through an existing contract with The Colography Group.




6
  Information compiled for the cities of Los Angeles, San Francisco, Chicago, New York, and Miami using data from
the Better Business Bureau’s website.
7
  The IPC report also includes single piece First-Class Mail International®. However, ETOEs and private mail service
providers do not process this type of mail. Therefore, we did not include this data in our analysis.
8
  The Colography Group is an established provider of market data to the Postal Service. They categorized volume by
number of shipments and not by number of mailpieces.
                                                           iii
Competition in the International Outbound Mail Market                                                  EN-WP-12-001



Competitive Position of the Postal Service

There are no statutes to prohibit the Postal Service from competing with ETOEs or other
entities that provide international shipping and delivery services. However, the Postal
Service is required to comply with U.S. regulations, which provide little flexibility
regarding pricing and labor costs. This has resulted in various opinions, described
below, about actions the Postal Service should take to improve its position in this
market and to compete effectively with ETOEs and private mail service providers that
operate with flexible pricing and no government-mandated transportation contracts or
labor agreements.

Postal Service management believes it has difficulty competing with ETOEs and other
entities because of the high costs associated with its large infrastructure, its collective
bargaining agreements, and the universal service mandate. 9 Both ETOEs and PROs
can also offer products that are sold for less than cost for the purpose of bringing in
customers. In addition, management asserts they are unable to develop flexible pricing
alternatives when opportunities surface and cannot negotiate favorable transportation
contracts with all international air carriers due to legislative mandates. 10 We agree that
these issues present a challenge to the Postal Service when competing with ETOEs
and PROs that do not operate under these constraints.

Certain pundits believe that ETOEs and PROs providing similar services should not be
constrained because restrictions stifle competition. They believe the UPU terminal dues
rate system 11 is discriminatory because it gives preferential rates to developing
countries and their associated ETOEs and, rather than focusing on restrictions, the UPU
should reform the system to become more cost-based. One suggested alternative is to
adjust postage rates based on the cost of production (prevailing domestic delivery
rates).

Additional factors contribute to the challenges facing the Postal Service when
competing with ETOEs and PROs for international shipping and delivery services. Many
of these factors are beyond the direct control of the Postal Service. For example:

    The business environment has changed dramatically in recent years and continues
     to evolve. The number of ETOEs and PROs participating in the market is continually
     changing and, like domestic mail, international letter mail volume continues to
     decrease.

    The global economy continues to grow, making the business relationship between
     countries more complex and interconnected.

9
  Title 39 U.S.C. §101(a).
10
   Title 39 U.S.C. §5402.
11
   Since 1969, the designated operator that sends a letter-post item to another country remunerates the destination
Post for processing and delivering that item. This system of remuneration is known as terminal dues.

                                                         iv
Competition in the International Outbound Mail Market                         EN-WP-12-001




   Entities take advantage of weak controls and benefit from the existing UPU terminal
    dues system.

Conclusion

Based on our research, we determined that international mail market data is currently
available only through IPC reports provided by the Postal Service. The IPC information
is limited in breadth since it only documents the voluntary input of six designated
operators. We also identified The Colography Group as a resource that is currently
providing the Postal Service with market data on international outbound parcels and
express items weighing less than 70 pounds.




We attempted to obtain letter mail market data from The Colography Group, to include
in this report; however, the time they needed to gather and summarize this data was
prohibitive to the timeliness of this paper.

There are challenges associated with the Postal Service’s ability to offer competitive
rates for international shipping and delivery services. While the Postal Service can
influence some of these challenges, it has no control over many of them. Additionally,
we determined any new proposal that limits competition would conflict with the intent of
current laws and regulations. For example, some pundits suggest one way the Postal
Service could effectively compete in the international mail market would be to operate a
subsidiary free from current legal and oversight restrictions. However, significant
changes in current law would need to take place before the Postal Service could
operate in such a manner.




                                                    v
Competition in the International Outbound Mail Market                                                                                EN-WP-12-001



                                                      TABLE OF CONTENTS

Competition in the International Outbound Market ................................................................... 1

Background ........................................................................................................................................... 1

Entities Operating in the United States ............................................................................................... 2

   Universal Postal Union ..................................................................................................................... 2

   Extraterritorial Offices of Exchange................................................................................................. 2

   Private International Mail Service Providers ................................................................................... 3

   Competition Issues ........................................................................................................................... 3

Market Share......................................................................................................................................... 4

   Postal Service Data .......................................................................................................................... 5

   Market Data ....................................................................................................................................... 6

Competitive Position of the Postal Service......................................................................................... 8

Appendix A: Types of Remail ............................................................................................................ 11

Appendix B: List of Universal Postal Union Bodies ......................................................................... 13

Appendix C: Types of Postal Operators ........................................................................................... 14

Appendix D: Timeline of Key Extraterritorial Offices of Exchanges Developments ...................... 15

Appendix E: List of Extraterritorial Offices of Exchanges in the United States ............................. 16

Appendix F: Glossary ......................................................................................................................... 17
Competition in the International Outbound Mail Market                                                   EN-WP-12-001




                       Competition in the International Outbound Market

Background
In September 1986, at the urging of American businesses and the U.S. government, the
Postal Service exempted private express statutes and subsequently suspended its
monopoly on delivery of international mail. U.S. policy during this time was to encourage
free enterprise and permit and promote competition in the international, or cross-border,
mail marketplace. Since that time, a variety of alternative mail service providers have
entered the marketplace to compete with the Postal Service to provide international
delivery services.

The Postal Service faces competition from various types of commercial entities, foreign
and domestic. Extraterritorial Offices of Exchanges (ETOEs) are businesses operated
by, or in connection with, foreign postal operators conducting business in U.S. territory.
Private international service providers are commercial business enterprises operating
independently, or in conjunction with an established ETOE in U.S. territory under U.S.
laws. In both cases, these entities are legally entitled to conduct business in the U.S.
and nothing prevents them from performing remail 12 functions.

Postal Service management has expressed concern that ETOEs and private
international mail service providers maintain unfair competitive advantages. Specifically,
these entities are free to negotiate rates and contracts under the U.S. free enterprise
system and are not bound by U.S. statutes and regulations placed on the Postal
Service. They are also not required to bear costs associated with the universal service
mandate. ETOEs have the additional benefit of using the terminal dues system to their
advantage. 13

We initiated this project at the request of Postal Service management to assess foreign
postal operators and other commercial entities providing outbound international
shipping and delivery services from the U.S. Our objective was to address the following
three questions posed by Postal Service management:

    How many entities operating in the U.S. market provide international outbound
     services?

    How much revenue is the Postal Service losing to these entities?

    Can the Postal Service compete with these entities?




12
   The practice of non-Postal Service entities bypassing the Postal Service for delivery of outbound international mail
service is known as remail. See Appendix A for types of remail.
13
   Under UPU regulations, ETOEs established by transition system countries or paying those countries for use of their
indicia, are able to exploit differences in terminal dues rates.



                                                          1
Competition in the International Outbound Mail Market                          EN-WP-12-001



Entities Operating in the United States

Universal Postal Union

The Universal Postal Union (UPU) was established in 1874 and is the second oldest
international organization worldwide. The UPU is made up of four bodies 14 and has 192
member countries 15 which use this forum to increase cooperation between postal sector
players. The UPU fulfills an advisory, mediating, and liaison role; and provides technical
assistance where needed. It sets the rules for international mail exchanges and makes
recommendations to stimulate growth in mail, parcel, and financial services volumes
and improve the quality of service for customers.

One of the many functions of the UPU is to oversee the rules governing terminal dues,
or funds paid from one country to another to cover their cost, or portion thereof, of
getting an international mailpiece to its destination. As part of its standard and
regulation making function, the UPU is also looking at ETOEs and attempting to identify
and solve their various regulatory and operational problems.

Extraterritorial Offices of Exchange

The trend to increase economic development in postal markets has led many postal
operators to develop ETOE operations outside their national boundaries to provide
remail services. For example, Deutsche Post operates ETOEs in various cities across
the U.S. and provides mail service to Germany and destinations worldwide. Once mail
is consolidated they ship directly to their logistics partner, DHL, bypassing the Postal
Service.

The establishment of ETOEs has been a controversial issue. Some countries have
declared policies refusing acceptance of inbound items from ETOEs under the rates,
terms, and conditions of the UPU acts, because ETOEs are strictly commercial entities
that do not fulfill all the reciprocal obligations of the UPU acts. The U.S. announced in
September 2001 that it would only accept items from ETOEs at domestic First-Class
Mail® rates. 16

ETOEs benefit from the policies established for the members in the UPU system,
including access to postal rates intended for official designated postal operators (DPO).
In the past, the UPU categorized countries as least developed, developing, and
industrialized, depending on the country’s stage of economic development. The UPU
developed a “target system” of terminal dues for industrialized countries, and a
“transition system” of terminal dues for developing and least developed countries.
Target system and transition system countries’ terminal dues vary in accordance with
that country’s classification according to the mail volume, postal tariffs, cost, and so

14
   See Appendix B for a list of UPU bodies.
15
   Data as of January 2012.
16
   See Appendix D for a timeline of key ETOE developments.


                                                       2
Competition in the International Outbound Mail Market                                                     EN-WP-12-001



forth. In some cases, the two systems of terminal dues allows ETOEs or private mail
service providers to take advantage of opportunities in price differences charged for
delivery of cross-border mail. For example, an ETOE may “purchase” the use of the
indicia from a transition system country. In doing so, they will pay lower terminal dues
rates for the mail they process and can, in turn, pass those savings on to customers
who are interested in using the provider with the lowest rate.

Each country is allowed to create its own policy concerning the establishment of ETOEs
within its territory, as well as the acceptance of ETOE items. ETOEs operate in the U.S.
as permitted by international agreements intended to foster cooperation in the
international mail market. As of October 2011, there were 141 ETOEs worldwide, with
28 in the U.S. 17

Private International Mail Service Providers

Private international mail service providers are similar to ETOEs but are generally
private companies not owned by a foreign postal operator. 18 We identified over 200 of
these private service providers positioned in the five cities with Postal Service ISCs.
These entities provide mailing services directly to U.S. companies and bypass the
Postal Service. They generally ship material as freight and are free to negotiate
advantageous rates with carriers. For example, some private mail service providers
offer delivery service to China for $7 for the first pound and $3 per additional pound. In
comparison, the Postal Service offers a First-Class Mail rate of approximately $10 for
the first pound and $6 for each additional pound. 19 Some also offer door-to-door
delivery service in 5 working days and free pick-up for commercial customers. Studies
have reported that PROs may also oppose ETOEs since ETOEs can charge less than
PROs for mail delivered under the UPU terminal dues rates system.

Competition Issues

Postal Service officials have stated that ETOEs and PROs have unfair competitive
advantages because they do not bear universal service obligations or their associated
costs. 20 In addition, both ETOEs and private international mail service providers can
offer products that are “loss-leaders,” or products that are sold for less than cost for the
purpose of bringing in customers. The Postal Service is prohibited from enticing
customers in this manner. These service providers also have the freedom to negotiate
favorable transportation contracts with international air carriers in contrast to the Postal
Service, which is required to seek certified U.S. flag air carriers before being allowed to
negotiate rates on the open market.



17
   See Appendix E for a list of the 28 ETOEs.
18
   See Appendix C for types of postal operators.
19
   Based on rates provided on USPS.com. Priority Mail® and Express Mail® rates are higher.
20
   Universal service obligation is a legal requirement that sets specific minimum levels of attainment for service
elements of a Postal Service (or a set of Postal Services) that serves substantially all persons in the nation.


                                                            3
Competition in the International Outbound Mail Market                                                 EN-WP-12-001



Officials also cited other situations arising from competitive service provider practices
that were detrimental to the Postal Service. For example, additional costs can be
incurred when misdirected shipments or returned mail originating from ETOEs or PROs
are charged to the Postal Service because foreign postal administrations assume the
mail originated from the Postal Service. These situations may occur inadvertently or
deliberately since ETOEs and PROs have been known to misdirect items to circumvent
certain weight thresholds or mislabel products to confuse foreign posts. In these
instances, there is some responsibility of internal controls by the foreign post to identify
these misguided shipments and return them to the originator. However, the root cause
of these issues lie in the inadvertent or deliberate process instituted by the ETOE or
private mailer.

Additional costs can also be incurred by the Postal Service due to the manner in which
the UPU has set up the International Mail Processing Centre codes. These five
character codes are assigned by the UPU to identify any mail processing facility that
either generates or receives dispatches, or acts as an international mail transit center.
In the U.S., ETOE’s are assigned a code that begins with the letters “US.” As a result,
some foreign posts, especially those without electronic data interchange capability,
invoice the Postal Service by default when they process mail with any code beginning
with the letters “US.”

Another competitive advantage practiced by ETOEs is the use of “arbitrage.” 21 The
potential for arbitrage exists in the cross-border exchange of mail because the two-
tiered terminal dues system allows transition system countries to pay lower rates to
target system counties for the delivery of their mail. For example, a mail consolidator or
an ETOE operator may contract with the DPO of a transition system country and pay
them for the use of their indicia. When the mail consolidator or ETOE operator uses the
transition system country’s indicia, they can benefit by taking advantage of greatly
reduced terminal dues rates available to the transition system country. Some believe
aligning UPU rates and practices with domestic rates and practices for each country
would mitigate these competitive issues.

Market Share

Competitive information to determine market share for ETOEs and PROs was compiled
from various sources. We found public operational and financial data to be, in most
cases, proprietary or undisclosed, or consolidated within parent company financials
without the necessary detail. Therefore, we relied on data obtained from specialized
market research firms contracted by the Postal Service to identify any available market
revenues and trends.




21
   Arbitrage occurs when the same product is priced differently in two or more markets and mailers take advantage of
this imbalance for the purpose of making a profit.


                                                         4
Competition in the International Outbound Mail Market                                                   EN-WP-12-001



International Post Corporation Market Report

One source of market share data is the International Postal Corporation (IPC) 22 Letters
Market Report.




                       Table 1: IPC Report Summary for U.S. Letters Market




Calendar
  Year




Postal Service Data
Postal Service revenue for delivery of outbound international letter mail has
progressively declined, while income from package services has steadily increased
during the previous 4 fiscal years. We reviewed revenue data from the Postal Service’s
International Product Report to identify mail revenue trends for movement of
international letter and package products. 25 The drop in demand for international letter
mail delivery services is consistent with the overall decline in letter mail delivery

22
  The IPC is a partner with the postal industry with a mission to provide leadership by encouraging increased quality
and interoperability and “gives its members an authoritative, independent, and collective voice.”
23




     The IPC Letters Market audit is an ongoing project managed by Ci Research Ltd. on behalf of IPC.
25




                                                           5
Competition in the International Outbound Mail Market                                 EN-WP-12-001



services experienced by the Postal Service as consumers and businesses shift to
electronic or alternative forms of communication and payment options.

Figure 1 shows the change in revenue for outbound international mail-related products
from fiscal years 2008 through 2011.



                       Figure 1: Postal Service International Mail Revenue Trend
                                             (in thousands)

          $1,400,000

          $1,200,000

          $1,000,000

            $800,000

            $600,000

            $400,000

            $200,000

                  $0
                             FY 2008              FY 2009          FY 2010   FY2011

                                                       Letters   Packages


Source: Postal Service International Product Report.

Market Data
Market share reports generated by The Colography Group through contracts with the
Postal Service provided insights on volume and revenue information for international
outbound parcels under 70 pounds and Express Mail envelopes. Table 2 summarizes
the pertinent information available in these reports.




                                                          6
  Competition in the International Outbound Mail Market                                                  EN-WP-12-001




             Table 2: Under 70-pound Parcel and Express Mail U.S. Air Exports

  Calendar
    Year                                    Volume                                             Revenue

                                                          Postal      Total                               Postal
                   Postal Service           Total Market  Service    Market                              Service
                      Shipment               Shipment    Shipment   Revenue                              Revenue
                   (in thousands)         (in thousands)   Share  (in billions)                           Share

         2009

         2010
                                                                                          27
Source: 2009 and 2010 reports compiled by The Colography Group for the Postal Service.


  We requested market share for letter mail data from The Colography Group to identify
  the volume and revenue of U.S. originated mail sent outside of the U.S. by ETOEs and
  private mail service providers in this category. Specifically, we requested:

      Total market size of the U.S. international outgoing letter mail volume.

      Total market share of the leading mail service providers in the U.S. international
       outgoing letter mail market.

      Distribution of international letter mail volume by processing channels (Postal
       Service, ETOE, and other mail consolidators).

      Strategic partnerships 28 of letter mail service providers.

  The Colography Group stated that they could obtain the information we requested;
  however, they would need to gather additional information which would take more time,
  thus be prohibitive to the timeliness of this paper. Therefore, we recommend the Postal
  Service
               better understand the existing market.




  26
     The Postal Service did not request CY 2010 revenue information from The Colography Group.
  27
     CY 2011 data will be compiled and prepared for the Postal Service, but that data is not currently available.
  28
     A strategic partnership exists when one mail service provider takes advantage of economies or efficiencies of
  another, such as the Postal Service using Federal Express for Express Mail items.


                                                            7
Competition in the International Outbound Mail Market                          EN-WP-12-001



Competitive Position of the Postal Service

The Postal Service does not have the authority to operate outside of the laws
prescribed in Title 39 of the U.S. Code which state that subsidiaries cannot exist outside
of the oversight of the Postal Regulatory Commission (PRC) or the Board of Governors.
Additionally, any attempts to modify current U.S. policies or regulations to benefit its
position in the international marketplace could be inconsistent with current law to
"promote and encourage unrestricted and undistorted competition" in providing
international postal services. 29 ETOEs and private mail service providers do not have to
consider these same legal issues when deciding how to compete in this market.

In agreement with the spirit of promoting competition expressed by U.S. policy, some
pundits believe that ETOEs and PROs providing similar services should not be
constrained because restrictions stifle competition. Instead, they believe the UPU
should reform discriminatory UPU terminal dues rates to become more cost-based. For
example, some believe a solution to resolve the competitive advantage ETOEs have on
the international mail market is to align terminal dues with domestic postage rates.

Others believe allowing ETOE numbers to increase could improve international mail
service and provide competitive alternatives to national post administrations that provide
inefficient service. Conversely, if the number of competitive choices decrease, the UPU
may provide larger mailers with incentives toward electronic diversion, not only for
international mail but also for domestic mail which could result in declining mail volume.

Yet others believe ETOEs are merely a symptom of an economically inefficient and
outdated terminal dues structure that has given rise to remail and arbitrage. As
commercial operators with access to UPU documentation, ETOEs can choose to use
either the mail or the commercial channel to deliver mail items. PROs use ETOEs or
commercial channels and have the ability to negotiate lower rates to gain advantage.
Whether the Postal Service can draw the business of customers currently using ETOEs
and PROs by offering more competitive rates or promoting superior service may only be
able to be answered after legislative changes occur that allow the Postal Service to
compete with these entities effectively.

While Postal Service officials do not agree with all of these views, they have been
working with State Department and PRC staff since 2008 to make the UPU terminal
dues systems more cost-based.




29
     Title 39 U.S.C. §407(a)(2).


                                                    8
Competition in the International Outbound Mail Market                            EN-WP-12-001



Conclusion

We began this work with three questions posed by Postal Service management:

   Question: How many entities operating in the U.S. market provide outbound
    services?

    Response: There are 28 ETOEs operating in the U.S., with 141 ETOEs worldwide.
    Although private mail service providers operate in a proprietary and/or undisclosed
    fashion, our research identified at least 200 of these types of entities operating near
    the five cities with Postal Service ISCs positioned.

   Question: How much revenue is the Postal Service losing to these entities?

    Response: The Colography Group has previously provided market share
    information to the Postal Service for parcels less than 70 pounds and Express Mail
    envelopes. They also stated they could obtain ETOE and private mail service
    provider market information for letter mail; however, they would need to gather
    additional information from private mail service providers.



   Question: Should the Postal Service be allowed to compete against foreign-owned
    Posts within the U.S.?

    Response: The operation of ETOEs and PROs has been controversial for some
    time. ETOEs are able to exploit their dual status as commercial operators and
    members of the UPU. Proponents of ETOEs assert that they promote competition,
    while critics argue they compete unfairly. Private mail service providers also function
    as commercial operators and are free to negotiate business under the free
    enterprise system.

To obtain answers on the first two questions the Postal Service must pursue ETOE and
private mail service provider market share data
            While this data will benefit overall business decisions related to outbound
international mail, the Postal Service’s ability to compete with these competitors
remains limited by federal statutes and, therefore, encouraging unrestricted competition
could be difficult and would require legislative change.

The rules surrounding international mail operation are complex and complicate the
issue. UPU acts and regulations govern the exchange of mail between countries. The
U.S. Department of State has the primary responsibility to represent the Postal Service
at the UPU. Other international arrangements such as trade agreements may also play
a role. Additionally, there are U.S. and Postal Service laws, regulations, and
procedures. Addressing valid concerns about ETOEs and private providers may involve
making changes at any of these levels. Additionally, the multiple perspectives involved

                                                    9
Competition in the International Outbound Mail Market                            EN-WP-12-001



may be conflicting. The best interests of the Postal Service, the U.S. mail industry, and
the global postal community may not all be the same. A solution that addresses one set
of interests may cause additional problems for others.

Considering the complexities of the international marketplace, the Postal Service should
promote a policy to best support its own interests. The Postal Service should continue
to work to deregulate the rates it pays for the air transportation of outbound mail. In light
of the Postal Service’s ongoing cost-cutting measures and limited investment resources,
the Postal Service could focus marketing efforts toward entities with the majority of the
international market share. We believe the greatest potential for growing international
revenue would be to target marketing efforts to gain a market share from the Postal
Service's largest competitors in the international delivery services market.




                                                    10
Competition in the International Outbound Mail Market                                                    EN-WP-12-001



                                        Appendix A: Types of Remail

ABA Remail

ABA remail occurs when a customer resident in country “A” posts mail in country “B”
(either directly or through an agent) for delivery back into country “A” (ABA remail). 30
ABA remail may take the form of:

      ABA physical remail – mail produced in the U.S., transported out of country, and re-
       entered as inbound international letter post under foreign (“B” country) indicia.

      ABA virtual remail – mail produced in the U.S. and entered into the Postal Service’s
       mailstream as inbound international mail.

      ABA electronic remail (also called non-physical remail) – mail not printed in the U.S.,
       but instead possibly prepared (designed and stored in electronic format) in the U.S.,
       printed in a foreign country, and posted to the U.S. as inbound foreign origin mail.


ABB Remail

ABB remail occurs when a customer who is a resident in country "A" posts mail in
country “B” (either directly or through an agent) for delivery back into country “B” (ABB
remail is also called direct entry).30 ABB remail may take the form of:

      Outbound ABB – in the outbound mode, a remailer (or consolidator) transports U.S.
       origin mail to a foreign country and injects it into that country’s domestic delivery
       system. Such mail “bypasses” the Postal Service and, in general, would reduce the
       contribution made by outbound international mail (since outbound letter post more
       than covers its volume-variable costs).

      Inbound ABB – for inbound ABB, the remailer or foreign postal administration
       directly injects foreign origin mail into the U.S. delivery system. Since U.S. domestic
       rates are designed to cover costs, from the Postal Service perspective, ABB merely
       provides foreign mailers the same access to domestic rates that U.S. customers
       have.




30
     Joint study on Article 43 by the U.S. Department of State, the Postal Service, and the PRC, May 9, 2002.


                                                           11
Competition in the International Outbound Mail Market                           EN-WP-12-001




ABC Remail

ABC remail occurs when a customer who is a resident in country “A” posts mail in
country “B” (either directly or through an agent) for delivery in country “C” (ABC
remail).30 ABC remail may take the form of:

   ABC physical remail – mail produced in country “A” and transported abroad (to
    country “B”) and re-entered as international mail to the U.S. under country “B’s”
    indicia.

   ABC electronic remail (also called non-physical remail) – mail not printed in country
    “A” but, instead, possibly prepared (designed and stored in electronic format) in
    country “A”, then printed in country “B” and posted to the U.S. under country “B’s”
    indicia.

   ABC virtual remail:

    o Mail produced in country “A” with the international indicia of country “B” and
      routed from country “A” to country “C”.

    o Mail produced in country “C” with the international indicia of country “B”, but
      entered into country “C’s” international mailstream without ever crossing the
      border.




                                                    12
Competition in the International Outbound Mail Market                              EN-WP-12-001



                    Appendix B: List of Universal Postal Union Bodies

The Congress             The Congress brings together representatives from the member
                         countries every 4 years to define the world postal strategy, make
                         changes to standards and regulations, and define the “road-map”
                         for the UPU until Congress meets again.
The Council of           The CA is made up of 41 member countries and meets annually to
Administration           ensure the continuity of work between congresses and studies
(CA)                     regulatory, administrative, legislative, and legal issues. The CA can
                         also approve proposals by the Postal Operations Council (POC) to
                         adopt proposals or new procedures until the meeting of the next
                         Congress.
The Postal               The POC is made up of 40 member countries which are elected
Operations               during each Congress. The POC is the technical and operational
Council (POC)            arm of the UPU and assists Posts with modernization and
                         upgrading of their postal products. The POC also meets annually at
                         UPU headquarters.
The International        The headquarters of the UPU that provides technical and logistical
Bureau (IB)              support to the groups described above. The IB performs other
                         duties including monitoring quality and service on a global scale.




                                                    13
Competition in the International Outbound Mail Market                              EN-WP-12-001



                           Appendix C: Types of Postal Operators

    Name                                        Definition                         Example
Designated           An operator, whether structured as a department of            Postal
Postal               government, ministry, state company or private company,       Service
Operator             which has been assigned prime responsibility for fulfilling
(DPO)                obligations under the UPU acts in the territory over which
                     the government has jurisdiction.
ETOE                 An office or facility operated by or in connection with a     Deutsche
                     DPO outside its national territory, on the territory of       Post/DHL
                     another country. DPOs establish these offices for
                     commercial purposes to draw business in markets
                     outside of their territory.
Private              An operator without a license registered as a commercial      AAE
Operator             company that operates in the postal sector and is actively
(PRO)                involved in the conveyance, processing, and delivery of
                     postal items. Such a company does not need to comply
                     with the USO or the provision of a subsidy or levy to the
                     government in order to maintain the universal services
                     provided by a DPO.
Consolidator         A company which conducts postal-related activities            Mailing
                     (carries out preparatory work prior to postage). These        house,
                     activities are generally complementary to the core postal     such as
                     business, such as mail production (database                   MSI
                     management, printing, insertion, addressing, labeling),
                     mail preparation (pre-sorting, bundling, containerizing)
                     and transport of bulk mail to a DPO, ETOE, or PRO
                     handover point at an operational facility, such as
                     collecting or sorting centers.
High Volume          A wholesale customer who regularly mails high volumes         PDS
Mailer               (bulk), such as a direct mailer, publisher, financial         Foreign
                     institution, catalogue company, or utility company.           Mailing
                                                                                   Specialists




                                                    14
Competition in the International Outbound Mail Market                           EN-WP-12-001



Appendix D: Timeline of Key Extraterritorial Offices of Exchanges Developments

 8/20/1986         The Postal Service issues final rule suspending the Private Express
                   Statute to permit international remailing (51 Federal Register 29636-
                   29638).
 10/21/1998        Public Law 105-277 gives the State Department primary responsibility
                   for policy regarding U.S. participation in the UPU (Public Law 105-
                   277).
 9/3/2001          The U.S. allows establishment of ETOEs. However, items tendered
                   by ETOEs cannot be accepted by the U.S. Postal Service on the
                   basis of UPU documentation and for compensation at UPU terminal
                   dues rates (UPU IB Circular 370). It is the policy of the U.S.
                   government that UPU acts do not apply to ETOE commercial
                   operations in the U.S.
 9/23/2004         UPU decides items sent from ETOEs are considered commercial
                   items not subject to the UPU Acts, unless the destination postal
                   administration has announced a policy agreeing to apply those acts to
                   the items it receives from ETOEs. In addition, ETOEs do not have
                   universal service obligations under the UPU Acts (UPU Resolution C
                   44/2004).
 4/11/2005         The U.S. announces that its offices of exchange will refuse to accept
                   dispatches from ETOEs on the basis of UPU documentation (UPU IB
                   Circular 127), but rather on full domestic rates, terms and conditions
                   as any other commercial operator.
 1/28/2009         Resolution C 63/2008 invites UPU member countries to review and
                   notify the IB of their national policies on ETOEs.
 4/14/2009         The U.S. announces the issue of return of mail dispatched by ETOEs
                   and mail consolidators and urges postal operators to take measures
                   necessary to ensure that items with no U.S. postage indicia are not
                   inadvertently returned to the Postal Service (UPU IB Circular 84).




                                                    15
Competition in the International Outbound Mail Market                          EN-WP-12-001



   Appendix E: List of Extraterritorial Offices of Exchanges in the United States


                    METRO AREA                                 ETOE OWNER
       1      Chicago                             Posten AB Sweden
       2      Chicago                             La Poste, France
       3      Chicago                             United Arab Emirates Post
       4      Chicago                             New Zealand Post
       5      Chicago                             Royal Mail Great Britain
       6      Chicago                             Swiss Post
       7      Chicago                             Deutsche Post AG
       8      Chicago                             New Zealand Post
       9      Newark                              Posten AB Sweden
      10      Newark                              Deutsche Post AG
      11      Newark                              New Zealand Post
      12      New Jersey                          United Arab Emirates Post
      13      New York                            Royal Mail Great Britain
      14      New York                            Swiss Post
      15      New York                            Royal Post
      16      New York                            New Zealand Post
      17      Los Angeles                         Swiss Post
      18      Los Angeles                         La Poste, France
      19      Los Angeles                         Deutsche Post AG
      20      Los Angeles                         New Zealand Post
      21      Los Angeles                         Posten AB Sweden
      22      Miami                               Deutsche Post AG
      23      Miami                               Posten AB Sweden
      24      Miami                               Royal Post
      25      Miami                               New Zealand Post
      26      Philadelphia                        La Poste, France
      27      San Francisco                       Posten AB Sweden
      28      Washington, D.C.                    La Poste - De Post Belgium




                                                    16
Competition in the International Outbound Mail Market                            EN-WP-12-001



                                       Appendix F: Glossary

Arbitrage: The practice of taking advantage of a price difference between two or more
markets: striking a combination of matching deals that capitalize upon the imbalance,
the profit being the difference between the market prices.

Letter-Post: In general, letter-post items are priority items and non-priority items up to
2 kilograms (such as letters, postcards, printed papers, and small packets).

Parcel: The UPU identifies several categorizes of parcels (such as Ordinary, Air,
Surface Airlifted (S.A.L.), and Express). The maximum individual weight of parcels is
50 kilograms.

Postal Accountability and Enhancement Act: Legislation passed in 2006 which,
among other things, removed the authority for negotiating international postal
agreements from the Postal Service and passed it on to the State Department. 31
Congressional intent was to remove institutional advantages the Postal Service may
have had.

Remail: The practice of non-Postal Service entities bypassing the Postal Service for
delivery of outbound international mail service is known as remail (see Appendix A for
detailed descriptions of the types of remail).

Terminal Dues: Payments made by one postal administration to another for costs that
the destination country incurs in delivering inbound international mail.

Universal Postal Union (UPU): With its 192 member countries, the UPU is the primary
forum for cooperation between postal sector players. It helps to ensure a truly universal
network of up-to-date products and services.

Universal Service Obligation (USO): A legal requirement that sets specific minimum
levels of attainment for service elements of a postal service (or a set of postal services)
that serves substantially all persons in the nation. A USO may be imposed upon one or
more postal operators directly or upon a government agency with the authority to
regulate postal operators




31
     Title 39 U.S.C. § 407(b)(1).


                                                    17
